December 12, 2003

SUZANNE F. MEDVIDOVICH
SENIOR VICE PRESIDENT, HUMAN RESOURCES

SUBJECT:     Audit Report – Comparison of Retirement Benefits to Workers’
             Compensation Benefits for Employees on the Periodic Roll
             (Report Number HM-AR-04-001)

This report presents the results of our audit comparing retirement benefits to workers’
compensation benefits for totally disabled Postal Service employees on the periodic roll
(Project Number 03YN009HK000). Our objective was to perform a comparative cost
analysis of retirement benefits to workers’ compensation benefits. This audit was
initiated as a result of our review of Retirement Eligible Postal Service Employees on
the Workers’ Compensation Periodic Roll (Report Number HK-MA-03-001 dated
March 21, 2003).

Our audit found the Postal Service could save $19 million over the next 10 years if
255 totally disabled employees on the periodic roll were required to retire under their
applicable federal retirement system. Also, their survivors would receive benefits that
may not be available under the Federal Employees’ Compensation Act. Given the
Postal Service’s current $6.5 billion unfunded liability for workers’ compensation and
increasing annual chargeback costs, there is a need to reform the act to require eligible
totally disabled employees to retire on disability or voluntary retirement under their
applicable system. Legislative reform would help reduce the current number of
employees on the periodic roll and assist the Postal Service in reducing future workers’
compensation costs while providing adequate coverage to employees. Management
agreed with our findings indicating the report makes a compelling case for changes to
the Federal Employees’ Compensation Act. Management further stated the findings
and data depicted in the report would add support to the Department of Labor’s efforts
to reform the Federal Employees’ Compensation Act. Management’s comments and
our evaluation of these comments are included in the report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Erica Blackman,
director, Health Care Audit, at (703) 248-2100 or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: DeWitt O. Harris
    Ronald E. Henderson
    Charmaine E. Murmer
    Esther Bishop
    Susan M. Duchek
Comparison of Retirement Benefits to Workers’                                                            HM-AR-04-001
 Compensation Benefits for Employees on the Periodic Roll


                                              INTRODUCTION
    Background                      The Federal Employees’ Compensation Act, enacted in
                                    1916, is a comprehensive workers’ compensation law
                                    designed to provide medical and death benefits, income
                                    replacement, and other services to employees with
                                    work-related injuries. The Federal Employees’
                                    Compensation Act was not intended to serve as a
                                    retirement program, nor does it place age or time limitations
                                    on an injured worker’s receipt of workers’ compensation
                                    benefits. As long as the injured employee’s medical
                                    evidence substantiates that the total or partial disability is
                                    related to the work injury, the individual is entitled to receive
                                    benefits. Employees who fully or partially recover from their
                                    injuries are expected to return to work. If it appears the
                                    disability will continue, employees are placed on the
                                    periodic roll.1

                                    The Office of Workers’ Compensation Programs adjudicates
                                    claims and pays compensation, medical, and death benefits
                                    to injured federal workers. These benefits are paid from the
                                    Department of Labor’s Employees’ Compensation Fund. All
                                    fund outlays are billed annually to each employing agency
                                    through chargebacks. Each agency is responsible for
                                    reimbursing the Employees Compensation Fund for
                                    expenses paid from the fund for its injured workers. The
                                    Office of Workers’ Compensation Programs’ chargeback
                                    year is July 1 through June 30.

                                    The Office of Workers’ Compensation Programs classifies
                                    injured employees on the periodic roll in several categories.
                                    These include totally disabled, partial wage-earning
                                    capacity, overpayment, and no wage-earning capacity or
                                    reemployment determination. Employees classified as
                                    totally disabled have little to no future reemployment.
                                    Employees eligible for Federal Employees’ Compensation
                                    Act benefits receive either 66 2/3 percent or 75 percent2 of
                                    their basic salary tax-free until they return to work. This
                                    amount also includes an annual cost-of-living adjustment.
                                    In fiscal year (FY) 2002, the program paid all injured federal
                                    workers over $2.2 billion, including $1.61 billion in wage loss


1
  Employees on the periodic roll have permanent disabilities or injuries that have lasted or are expected to last for
prolonged periods (over 1 year).
2
  Only employees with dependents receive 75 percent of their basic salary.



                                                           1
                                                Restricted Information
Comparison of Retirement Benefits to Workers’                                                        HM-AR-04-001
 Compensation Benefits for Employees on the Periodic Roll



                                     compensation and the remainder in medical and death
                                     benefits.

    Postal Service                   The Postal Service is self-insured for workers’
    Workers’                         compensation costs, and these costs have continued to
    Compensation Costs               escalate. In chargeback years 1997 to 2002, the Postal
                                     Service’s workers’ compensation costs increased
                                     approximately 49 percent from $538 million to $805 million.3
                                     The Postal Service’s costs include some cases that
                                     originated over 25 years ago because the act places no age
                                     or time limitation on an injured worker’s receipt of workers’
                                     compensation benefits. According to senior Postal Service
                                     officials, the rising costs of injury compensation will have a
                                     substantial negative financial impact on the Postal Service.

                                     Specifically, in chargeback year 2002, the Postal Service
                                     paid over $805 million in workers’ compensation benefits
                                     and administrative fees to the Office of Workers’
                                     Compensation Programs for approximately 13,400 Postal
                                     Service employees on the periodic roll. The Postal
                                     Service’s 2002 chargeback costs accounted for 35 percent4
                                     of all federal agency expenditures for the workers’
                                     compensation program. Furthermore, in chargeback year
                                     2002, the Postal Service incurred approximately $94 million
                                     in compensation and medical costs for totally disabled
                                     employees.

    Totally Disabled                 Twenty-one percent (2,819) of the approximately
    Employees on the                 13,400 employees on the periodic roll were classified as
    Periodic Roll                    totally disabled. Based on the periodic roll data for
                                     chargeback year 2002, approximately 89 percent (2,502)
                                     of the 2,819 employees are age 55 or older as of
                                     September 30, 2003, as shown in Table 1.




3
    This figure does not include workers’ compensation costs for the Post Office Department.
4
    The percentage is based on workers’ compensation benefits paid, excluding administrative fees.



                                                           2
                                                Restricted Information
Comparison of Retirement Benefits to Workers’                                                         HM-AR-04-001
 Compensation Benefits for Employees on the Periodic Roll


                                                                    Table 1

                                               Age of Totally Disabled Employees on the
                                                Periodic Roll as of September 30, 2003


                                                                                     Number of
                                                           Age
                                                                                     Employees

                                                     85 and older                                   382
                                                       75 to 84                                   1,039
                                                       65 to 74                                     648
                                                       55 to 64                                     433
                                                    54 and younger                                  317
                                                         Total                                    2,819


                                     Fifty-five is the age at which most employees are first
                                     eligible for voluntary retirement. However, there is no
                                     requirement for an employee who has reached retirement
                                     age to be removed from the periodic roll. Consequently,
                                     some employees may remain on the periodic roll until they
                                     die.

                                     As shown in Table 2, approximately 73 percent5 (2,044) of
                                     the 2,819 employees have been on the Office of Workers’
                                     Compensation Programs periodic roll for 20 years or longer.




5
    Information on the number of totally disabled employees who had returned to work was not available.



                                                           3
                                                Restricted Information
Comparison of Retirement Benefits to Workers’                                                     HM-AR-04-001
 Compensation Benefits for Employees on the Periodic Roll



                                                                    Table 2

                                         Years Totally Disabled Employees Have Been
                                          on the Workers’ Compensation Programs
                                            Periodic Roll as of September 30, 2003


                                                    Years                 Number of Employees

                                              40 to 50 years                                     81
                                                 30 to 39                                       778
                                                 20 to 29                                     1,185
                                                 10 to 19                                       553
                                                   5 to 9                                       199
                                             Less than 5 years                                   23
                                                   Total                                      2,819

                                  According to a Postal Service management official, the
                                  Postal Service is quickly approaching a condition where
                                  positions will no longer be available to internally
                                  accommodate injured employees. In addition, the continued
                                  deployment of automated equipment decreases the number
                                  of available positions for injured employees.

    Federal Retirement            Postal Service employees are covered by one of
    Systems                       three retirement systems, the Civil Service Retirement
                                  System, the Dual Civil Service Retirement System, or the
                                  Federal Employees Retirement System, which are
                                  administered by the Office of Personnel Management.
                                  During the period of employment, the employer and the
                                  employee contribute to the employee’s retirement annuity.
                                  For the 2,819 employees, 182 participate in the Civil Service
                                  Retirement System and 245 participate in the Federal
                                  Employees’ Retirement System. The National Retirement
                                  Counseling System6 did not provide retirement data for the
                                  remaining 2,392 employees. Their records are no longer
                                  available because they are not on the Postal Service active
                                  employee roll.



6
  The National Retirement Counseling System provides computer generated annuity estimates on a semiannual basis
to employees eligible for optional retirement under the Civil Service Retirement System and the Federal Employees
Retirement System.



                                                       4
                                            Restricted Information
Comparison of Retirement Benefits to Workers’                                                    HM-AR-04-001
 Compensation Benefits for Employees on the Periodic Roll



                                 The amount of an employee’s annuity depends on years of
                                 federal service, age and salary. See Appendix A for a
                                 summary description of each retirement system, including
                                 eligibility and benefits for disability and voluntary retirees.

    Objective, Scope, and        Our objective was to perform a comparative cost analysis of
    Methodology                  retirement benefits to workers’ compensation benefits.

                                 To accomplish our objective, we interviewed Postal Service
                                 officials at headquarters and two district offices (Capital
                                 Metro and Dallas) on retirement and disability policy issues
                                 and received a demonstration of the National Retirement
                                 Counseling System.

                                 We reviewed the Postal Service Employee and Labor
                                 Relations Manual, the Injury Compensation Handbook, the
                                 Office of Personnel Management Civil Service Retirement
                                 System booklet, and the Federal Employees’ Retirement
                                 System booklet for disability and voluntary eligibility
                                 requirements. We also reviewed prior General Accounting
                                 Office and Office of Inspector General (OIG) audit reports
                                 on workers’ compensation issues, the Federal Employees’
                                 Compensation Act, and other Department of Labor
                                 publications on the Federal Employees’ Compensation Act.

                                 To obtain the monthly medical costs, workers’
                                 compensation payments, and estimated voluntary and
                                 disability retirement annuity payments for the 2,819 totally
                                 disabled employees, we used three systems: the Postal
                                 Injury Compensation System,7 the National Retirement
                                 Counseling System, and the Workers’ Compensation
                                 Information Reporting System.8 These three systems
                                 provided data on 255 of the 2,819 totally disabled
                                 employees. We focused our judgmental review on the
                                 255 employees because of data availability limitation.
                                 Consequently, this constitutes a judgment selection rather
                                 than a random selection.

                                 To determine the cost savings to the Postal Service, we
                                 performed a comparative cost analysis of the costs the

7
  The Postal Injury Compensation System is an OIG system that contains weekly medical costs and workers’
compensation data from the Office of Workers’ Compensation Programs for each injured Postal Service employee.
8
  The Workers’ Compensation Information Reporting System records payment data for employees on the periodic
roll.



                                                       5
                                            Restricted Information
Comparison of Retirement Benefits to Workers’                                     HM-AR-04-001
 Compensation Benefits for Employees on the Periodic Roll


                               Postal Service would incur if the 255 totally disabled
                               employees remained on the periodic roll for 10 years to
                               employees who retire under their applicable disability or
                               voluntary retirement systems. See Appendix C for details of
                               our methodology.

                               This audit was conducted from June through
                               November 2003 in accordance with generally accepted
                               government auditing standards and included such tests of
                               internal controls as were considered necessary under the
                               circumstances. We did not attempt to assess the reliability
                               of the data from the systems as part of our audit objective.
                               We discussed our conclusions and observations with
                               appropriate management officials and included their
                               comments, where appropriate.

 Prior Audit Coverage          We identified one prior OIG report related to the objective of
                               this audit.

                               Retirement-Eligible Postal Service Employees on
                               the Workers’ Compensation Periodic Roll (Report
                               Number HK-MA-03-001, dated March 21, 2003). Our
                               review disclosed Postal Service employees age 55 and
                               older make up 49 percent (6,500) of the approximately
                               13,400 employees on the periodic roll. Further, 70 percent
                               (9,345) of the employees on the periodic roll are totally
                               disabled with little or no future reemployment potential, or
                               reemployment has not been determined. Reform of the
                               Federal Employees’ Compensation Act is needed to
                               address concerns the act has become, in effect, a
                               retirement system for some workers’ compensation
                               beneficiaries. These reforms, if implemented, would
                               decrease the number of employees on the periodic roll and
                               would reduce compensation costs. We recommended
                               management pursue whether congressional assistance
                               should be sought to pay administrative fees to the Office of
                               Workers’ Compensation Programs. Management agreed
                               with our recommendation and stated they have supported
                               efforts to change the Federal Employees’ Compensation
                               Act, which would alter the program’s structure.
                               Management’s actions taken or planned were responsive to
                               the issues identified in the report.




                                                    6
                                         Restricted Information
Comparison of Retirement Benefits to Workers’                                                           HM-AR-04-001
 Compensation Benefits for Employees on the Periodic Roll



                                              AUDIT RESULTS
    Cost Savings to the             Our audit found the Postal Service could save $19 million9 if
    Postal Service                  255 totally disabled employees on the periodic roll were
                                    required to retire under their applicable federal retirement
                                    systems. Furthermore, their survivors would receive
                                    benefits that may not be available under the Federal
                                    Employees’ Compensation Act. Legislative reform, if
                                    enacted, would help reduce the current number of
                                    employees on the periodic roll and assist the Postal Service
                                    in reducing workers’ compensation costs while providing
                                    adequate coverage to employees.

    Comparative Cost                Costs to the Postal Service would be less if 255 totally
    Analysis of Retirement          disabled employees were required to retire. If these
    Benefits to Workers’            employees retired under the Office of Personnel
    Compensation Benefits           Management retirement system, the Postal Service would
                                    pay only $92 million over the next 10 years.10 However, if
                                    the 255 employees remained on the workers’ compensation
                                    periodic roll, the projected estimated cost to the Postal
                                    Service would be $111 million over the next 10 years.11 As
                                    shown in the chart on the next page, the Postal Service
                                    would save $19 million12 over the next 10 years if these
                                    eligible employees were required to retire under their
                                    applicable retirement systems.




9
  The cost savings is the Net Present Value of the cash flow difference over the next 10 years.
10
   The Postal Service’s estimated retirement cost includes its portion of life insurance, health insurance, and annual
cost of living adjustments.
11
   The Postal Service’s estimated workers’ compensation costs includes compensation, medical, and an
administrative fee for these employees if they remain on the periodic roll for the next 10 years.
12
   If these 255 employees were required to retire, this would represent a net present value annual savings of
approximately $7,500 per employee.



                                                          7
                                               Restricted Information
Comparison of Retirement Benefits to Workers’                                                                               HM-AR-04-001
 Compensation Benefits for Employees on the Periodic Roll


                                                                        O WC P V S . R E T IR E M E N T
                                                    10 - Y E A R C O S T C O M P A R IS O N F O R 2 5 5 E M P LO Y E E S
                                                                 N E T P R E S E N T V A LUE IN M ILLIO N S


                                                    WORKERS'
                                                    COMPENSATION
                                                    RETIREMENT
                                                                                                    $ 111.3 0
                                                    DIFFERENCE                                                      $ 9 2 .18




                                       $ 6 4 .7 3




                                                $ 3 7 .8 1 $ 3 8 .3 4   $ 3 8 .3 4

                                                     $ 2 6 .9 2
                                                                                                                         $ 19 .12
                                                                                             $ 16 .0 3
                                                                                     $ 8 .2 3
                                                                                                     $ ( 7 .8 0 )
                                                                          $-




                                         Workers'                  Medical            Health & Life                 Total
                                          Com p./                                      Insurance
                                        Retirem ent




                               Legend:
                                      Workers’ Compensation- includes compensation and medical
                                       fee paid by the Postal Service for these employees.
                                      Retirement- includes a portion life and health insurance, and
                                       annual cost of living adjustments paid by the Postal Service.
                                      Medical- Continuous Medical care for a work-related injury.
                                      Health and Life Insurance - includes a portion employee’s
                                       health and life insurance paid by the Postal Service.

                               Furthermore, if an employee receiving workers’
                               compensation benefits dies from a non-work related injury,
                               the employee’s benefits terminate. As a result, the
                               survivors may be placed in a financial hardship. However, if
                               the employee retires under his or her applicable disability or
                               voluntary retirement system, the survivors would receive
                               survivors’ benefits.




                                                     8
                                          Restricted Information
Comparison of Retirement Benefits to Workers’                                     HM-AR-04-001
 Compensation Benefits for Employees on the Periodic Roll



 Management’s                  Management agreed with our findings indicating the report
 Comments                      makes a compelling case for changes to the Federal
                               Employees’ Compensation Act. Management further stated
                               the findings and data depicted in the report would add
                               support to the Department of Labor’s efforts to reform the
                               Federal Employees’ Compensation Act.

 Evaluation of                 Management agreed with the findings in our report.
 Management’s                  Management’s actions taken or planned are responsive to
 Comments                      the issues identified in the report. Management’s
                               comments, in their entirety, are included in Appendix D of
                               this report.

 Legislative Reform            Legislative reform of the Federal Employees’ Compensation
                               Act is needed to require totally disabled employees to elect
                               voluntary or disability retirement options when they become
                               eligible. The Federal Employees’ Compensation Act was
                               not intended to serve as a retirement program nor does it
                               place age or time limitation on an injured worker’s receipt of
                               workers’ compensation benefits. The Postal Service’s
                               April 2002 Transformation Plan included strategies to
                               reduce the agency’s costs for work-related injuries. The
                               plan describes the Postal Service’s position that
                               compensation should not be a lifetime benefit and at
                               retirement age, compensation should be adjusted to an
                               amount equal to what a retiree would receive from his or her
                               applicable federal retirement system. The agency supports
                               the proposed Department of Labor Federal Employees’
                               Compensation Act annuity, which would calculate benefits
                               similar to those of a normal retirement at age 65.

                               In December 2002, the President created the United States
                               Commission on the Postal Service to craft a vision “to
                               ensure the efficient operation of the Postal Service while
                               minimizing the financial exposure of the American
                               taxpayer.” One key objective of the commission was to
                               determine the flexibility the Postal Service should have to
                               control costs in response to financial, competitive, and
                               market pressures. The July 2003 report of the commission
                               stated that since the Postal Service has a unique
                               businesslike charter, the agency should be provided relief
                               from provisions of the Federal Employees’ Compensation
                               Act that create costly unintended consequences.



                                                    9
                                         Restricted Information
Comparison of Retirement Benefits to Workers’                                    HM-AR-04-001
 Compensation Benefits for Employees on the Periodic Roll


                               Specifically, the commission recommended the Postal
                               Service be permitted to transition workers’ compensation
                               recipients to the appropriate retirement system when they
                               become eligible for retirement. Similar measures are fairly
                               standard practice in the private sector and are aimed at
                               controlling costs while providing adequate coverage to
                               employees. Given the Postal Service’s current $6.5 billion
                               unfunded liability for workers’ compensation, and the
                               increasing annual chargeback costs, there is a need for
                               legislative reform to require eligible totally disabled
                               employees to retire on disability or voluntary retirement,
                               under their applicable system.

                               Such reform would help the Postal Service reduce the
                               number of employees on the periodic roll and would reduce
                               future workers’ compensation costs while providing
                               adequate coverage to employees.




                                                   10
                                         Restricted Information
Comparison of Retirement Benefits to Workers’                                               HM-AR-04-001
 Compensation Benefits for Employees on the Periodic Roll



                                            APPENDIX A

            COMPARISON OF FEDERAL RETIREMENT SYSTEMS
                    (DISABILITY AND VOLUNTARY)
                                      DISABILITY RETIREMENT

Civil Service Retirement System     Federal Employees Retirement           Dual Civil Service Retirement
             (CSRS)                        System (FERS)                      System (CSRS/Dual)
                                             ELIGIBILITY
   •   Employee’s disability          • Employee’s disability               •   Employee’s disability
       expected to last for               expected to last for                  expected to last for
       1 year.                            1 year.                               1 year.

   •   Employee must have              •     Employee must have             •   Employee must have
       5 years of service.                   18 months of service.              5 years of service.

   •   Employing agency must           •     Employing agency must          •   Employing agency must
       certify they cannot                   certify they cannot                certify they cannot
       accommodate the injured               accommodate the injured            accommodate the injured
       employee.                             employee.                          employee.
                                                BENEFITS
   •   Employee receives               •     Employee receives              •   Employee receives
       benefits equal to the                 benefits equal to                  benefits equal to the
       projected benefit at                  60 percent of high-3               projected benefit at age
       age 60, or 40 percent                 average pay minus                  60, or 40 percent of the
       of the employee’s                     100 percent of                     high-3 average salary,
       high-3 average salary,                Social Security benefit.           whichever is less.
       whichever is less.
                                       •     After the first year until     •   Employee’s disability
   •   If the employee has                   age 62, employee                   benefit is offset by
       more than 22 years of                 receives 40 percent of             qualified Social Security
       service when declared                 high-3 average pay.                benefits.
       disabled, accrued
       benefits cannot exceed          •     Employee’s disability          •   Cost-of-living adjustment
       40 percent of salary.                 benefit is offset by               matched at full rate of
                                             qualified Social Security          inflation.
   •   Employees’ disability                 benefit.
       benefit is offset by                                                 •   Survivors’ benefits.
       qualified Social Security       •     No cost-of-living
       benefits.                             adjustment during the
                                             first year; up to 2 percent
   •   Cost-of-living adjustment             after first year.
       matched at full rate of
       inflation.                      •     Disability benefit will be
                                             recomputed at age 62.
   •   Survivors’ benefits.
                                       •     Survivors’ benefits.




                                                     11
                                           Restricted Information
Comparison of Retirement Benefits to Workers’                                              HM-AR-04-001
 Compensation Benefits for Employees on the Periodic Roll


                                APPENDIX A. CONTINUED

                                     VOLUNTARY RETIREMENT
Civil Service Retirement System     Federal Employees Retirement          Dual Civil Service Retirement
             (CSRS)                        System (FERS)                     System (CSRS/Dual)
                                             ELIGIBILITY

   •   Age 55 and 30 years of          •     Minimum retirement age        •   Age 55 and 30 years of
       service.                              and 30 years of service.          service.

   •   Age 60 and 20 years of          •     Age 60 and 20 years of        •   Age 60 and 20 years of
       service.                              service.                          service.

   •   Age 62 and 5 years of           •     Age 62 and 5 years of         •   Age 62 and 5 years of
       service.                              service.                          service.

                                                BENEFITS
   •   Employee benefit is             •     Employee benefit is           •   Employee benefit is
       based on high-3 average               based on high-3 average           based on “high-3
       pay over any                          pay over any 3                    average pay” over any
       3 consecutive years of                consecutive years of              3 consecutive years of
       creditable service plus               creditable service.               creditable service plus
       credit for unused sick                                                  credit for unused sick
       leave.                          •     Retirement benefit is             leave.
                                             equal to 1 percent of
   •   Retirement annuity                    employees’ high-3             •   Retirement annuity
       cannot exceed                         average pay multiplied            cannot exceed
       80 percent of                         by years of creditable            80 percent of high-3
       high-3 average pay,                   service.                          average pay, unless
       unless the amount over                                                  the amount over
       80 percent is due to            •     If employee retires at            80 percent is due to
       credit for unused sick                age 62 or later with at           credit for unused sick
       leave.                                least 20 years of service,        leave.
                                             a factor of 1.1 percent is
   •   Survivors’ benefits.                  used rather than              •   Survivors’ benefits.
                                             1 percent.

                                       •     Survivors’ benefits.




                                                     12
                                           Restricted Information
Comparison of Retirement Benefits to Workers’                                       HM-AR-04-001
 Compensation Benefits for Employees on the Periodic Roll



                                  APPENDIX B
                        WORKERS’ COMPENSATION BENEFITS

                                          Workers Compensation

                                                 ELIGIBILITY

                    •    Job related injury.

                    •    No service time is required to be eligible for benefits.


                                                  BENEFITS

                    •    Employee receives benefits equal to 66 2/3 percent or
                         75 percent (only employees with dependents) of basic salary
                         tax-free until they return to work.

                    •    Annual cost of living adjustments while receiving benefits.

                    •    Survivors’ benefits - To protect survivor benefit annuity rights the
                         employee must apply for disability retirement with the Office of
                         Personnel Management within a year of application for Office of
                         Workers’ Compensation benefits.

                    •    If employee dies from a non-work related injury while receiving
                         Workers’ Compensation benefits and has not applied for
                         disability with the Office of Personnel Management, their
                         survivors receive no benefits.




                                                   13
                                         Restricted Information
Comparison of Retirement Benefits to Workers’                                HM-AR-04-001
 Compensation Benefits for Employees on the Periodic Roll


                                          APPENDIX C

  METHODOLOGY USED TO COMPARE RETIREMENT BENEFITS TO
           WORKERS’ COMPENSATION BENEFITS

Scope
The universe was 255 employees. Ten fiscal years (FYs) from 2004 through 2014 were
used in the analysis.

Methodology
The comparative discounted cash flow analysis based on the Postal Service guidelines
was used to compute the potential cost avoidance.

Scenario 1
A 10-year net cash flow was computed for the Postal Service’s costs for employees
remaining on the workers’ compensation periodic roll.

Scenario 2
A 10-year net cash flow was computed for the Postal Service’s costs for employees
retiring.

Comparative Net Cash Flow
The 10-year net cash flow of retirement costs was subtracted from the Office of
Workers’ Compensation Program cost.

Net Present Value
The Net Present Value of this cash flow difference for 10 FYs was determined by
discounting it for each year at the prevailing discount rate (Postal Service’s cost of
borrowing). The sum of 10 yearly net present value was the potential cost avoidance.

Assumptions
   Employees continue to live for 10 FYs.
   Employees are not medically fit to be reinstated for work during 10 FYs.
   Current injury-related medical cost continues for 10 FYs under both scenarios.
   All employees keep health and life insurance under both scenarios.
   Employees are under survivor benefit plan.

Cost Items
The following identifiable cost items are used in the analysis.




                                                   14
                                         Restricted Information
Comparison of Retirement Benefits to Workers’                               HM-AR-04-001
 Compensation Benefits for Employees on the Periodic Roll


                        Office of Workers’ Compensation Programs

Federal Employees’ Compensation Act payment: The data of this item was
available for each of the 255 employees.

Medical Expenses: Data on this item was available for each employee.

Federal Employees Health Benefits employer share: Data on this item was not
available for each employee. The Postal Service provided the total cost for FYs 2000,
2001, and 2002 and the average number of employees in each FY. The cost per
employee was calculated and applied for 255 employees to estimate the cost.

Federal Employees Government Life Insurance premium employer share: Data on
this item was not available for each employee. The Postal Service provided the total
cost for FYs 2000, 2001, and 2002 and the average number of employees in each FY.
The cost per employee was calculated and applied for 255 employees to estimate the
cost.

 (The Postal Service was not able to separate health benefits and life insurance
costs.)

                                 Federal Retirement Systems

Annuity: Estimated data on this item was available for each employee.

Medical Expenses: Medical care for a work-related injury can be continued after a
beneficiary accepts a retirement annuity. The above data for the Federal Employees’
Compensation Act was used, assuming that these costs will remain the same.

Employer share of premiums for Federal Employee Health Benefits Insurance:
Data on this item was not available for each employee. The Office of Personnel
Management’s website showed weighted average monthly premiums for Federal
Employee Health Benefits. The website also showed the government’s share of costs
for annuitants. This data was used in the analysis to compute the costs under
retirement.

Employer share of premiums for Federal Employees’ Government Life Insurance:
Data on this item was not available for each employees. The Postal Service provided
the total cost for FYs 2000, 2001, and 2002. The Office of Personnel Management
provided the total number of Postal Service employees receiving retirement benefits for
FYs 2000, 2001, and 2002. The cost per employee was calculated and applied for
255 employees to estimate the cost.




                                                   15
                                         Restricted Information
Comparison of Retirement Benefits to Workers’                                  HM-AR-04-001
 Compensation Benefits for Employees on the Periodic Roll



Escalation

The following escalation rates were used.

Federal Employees’ Compensation Act: 2.28 percent (Office of Personnel Management
average for 5 years, 1999-2003).

Health benefit premium: 10.86 percent (Office of Personnel Management average for
5 years, 1999-2003).

Medical bills: 10.86 percent (same as health benefit premium).

Annuity: 1.20 percent (Office of Personnel Management average for 4 years,
1999-2002).

Life insurance premium: 0.8 percent (rate for “all other costs” in Postal Service’s
Decision Analysis Report).

Discount Rate

Postal Service’s cost of borrowing rate of 4.5 percent, effective July 12, 2003.

Data

The audit team collected and provided the data from multiple sources, both internal and
external.




                                                   16
                                         Restricted Information
Comparison of Retirement Benefits to Workers’                     HM-AR-04-001
 Compensation Benefits for Employees on the Periodic Roll


                  APPENDIX D. MANAGEMENT’S COMMENTS




                                                   17
                                         Restricted Information
